IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM 2020
No.
BYRON BROWN,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
CERTIFICATE OF COMPLIANCE

The undersigned attorney of record, in accordance with Supreme Court
Rule 33.1, certifies that Petitioner’s Brief complies with the word limitations.
Counsel has relied on the word count of the word-processing system used to
prepare the document. The word count of Petitioner’s Brief as indicated by
the word-processing system is: 4,485
/s/ Gregory T. Mitchell
Gregory T. Mitchell
Law Office of Gregory T. Mitchell, P.C.
18141 Dixie Highway, Suite 115
Homewood, Illinois 60430
(708) 799-9325
Counsel for Byron Brown
November 25, 2020

